                                                          .".\.       SECU

                                                        O(j~~

                                                   W/ts~~


                                                   '\             1II1III    ~~
                                                             "",ISTi-t"



                                       SOOAL                      SECURITY



                                         Office of the Inspector General
MEMORANDUM
Date:   March        30,    2001                                                   ReferTo:
        Larry G. Massanari
To:     Acting Commissioner

          of Social         Security


        I nspector         General




Subject:Information Technology Capital Planning and Investment Control Process at the Social
        Security Administration (A-14-99-12004)


        Attached is a copy of our final report. Our objective was to evaluate the Social Security
        Administration's (SSA) information technology (IT) capital planning and investment
        control process for'compliance with the Clinger-Cohen Act of 1996 (CCA). Overall, we
        found that SSA's IT capital planning and investment process did not fully support a
        capital planning and investment control process as envisioned by the General
        Accounting Office and the Federal Chief Information Officer's Council for compliance
        with CCA.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




        Attachment
                                                                              b~
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      INFORMATION TECHNOLOGY
        CAPITAL PLANNING AND
   INVESTMENT CONTROL PROCESS
       AT THE SOCIAL SECURITY
           ADMINISTRATION

    March 2001   A-14-99-12004




 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
The objective of this audit was to evaluate the Social Security Administration’s (SSA)
information technology (IT) capital planning and investment control process for
compliance with the Clinger-Cohen Act of 1996 (CCA).

BACKGROUND
CCA was enacted in August 1996 to promote improvements in the use of IT to support
agency missions and improve agency management processes for acquiring and
managing IT investments. Agency responsibilities defined in the Act include: (1) capital
planning and investment control; (2) performance/results-based management and
reporting requirements; (3) appointment of an agency Chief Information Officer (CIO);
and (4) exception reports on major IT acquisitions that have significantly deviated from
cost, performance, or scheduled goals (see Appendix A for excerpts).

In February 1997, the General Accounting Office (GAO) issued guidance to all
Executive Branch agencies for evaluating IT investment decisionmaking for
implementing CCA and other major legislation. While the Agency is not required to, and
has not, adopted this guidance, the Federal CIO Counsel has endorsed this guidance
as “best practices” for implementing CCA (see Appendix B). The guidance provides a
three-phase process (Selection, Control, and Evaluation) for capital planning and IT
investments.

SELECTION PHASE

The goal of the Selection phase is to assess risk/return and prioritize current and
proposed IT initiatives to create an optimal portfolio of IT initiatives. One tool for
assessing risk is modeling.

CONTROL PHASE

The goal of the Control phase is for project managers and initiative owners to
periodically assess the individual’s progress against projected costs, schedule
milestones, and expected mission benefits. One feature of the Control phase is that the
tracking systems must be integrated with a capital planning and investment control
process.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                 i
EVALUATION PHASE

The goal of the Evaluation phase is to provide feedback that will lead to constant
improvement in the organization’s IT investment process. During the Evaluation phase,
the organization will perform a post-implementation review to compare actual data with
projected data, including life-cycle costs and life-cycle returns.

RESULTS OF REVIEW
Using the outline of the GAO guidance, we have organized our findings into
three phases.

SELECTION PHASE

SSA’s Strategic Planning Process did not require a risk assessment using risk modeling
for proposed IT projects. Also, the Agency was not evaluating the use of decision
support software (DSS) to assist in selecting the optimal portfolio of IT investments.

CONTROL PHASE

SSA’s individual tracking systems were not integrated to support a capital planning and
investment control process. Below are two examples of conditions demonstrating non-
integration.

1. 	 There was no IT project accountability data base (system) for capturing different
     types of project costs, such as internal programming costs and external software
     and hardware purchases.

2. 	 SSA had not monitored in-process reviews for performance. For example, SSA did
     not perform variance analyses when cost and scheduling deviated from what was
     expected. Since SSA was not performing a variance analysis, exception reporting to
     management cannot be done when costs increase by 10 percent or schedules slip
     by 6 months.

EVALUATION PHASE

SSA has not established a post-implementation review process (policies and
procedures) nor has it targeted any IT projects for post-implementation review except
the review of the intelligent workstation/local area network project requested by
Congress.

CONCLUSION AND RECOMMENDATIONS
We note that SSA had made noticeable progress toward implementing an IT capital
planning and investment control process, as envisioned by GAO and the Federal CIO
Council. SSA’s strengths include:


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                 ii
�	 reviewing proposed IT projects against the Agency’s mission and goals for strategic
   effectiveness,

�   establishing a CIO, and

�	 requiring major IT projects to be grouped into smaller more manageable project
   phases before full implementation.

However, the results of our review of SSA’s IT Capital Planning and Investment Control
Process and interviews with SSA personnel had identified several improvements the
Agency needs to consider regarding its implementation of CCA. Overall, SSA’s IT
capital planning and investment process did not fully support a capital planning and
investment control process, as envisioned by GAO and the Federal CIO Council. SSA
needs to make additional Agencywide improvements, in the Selection, Control, and
Evaluation phases of its IT investment process.

We recommend SSA:

Finding 1- Selection Phase

�	 Develop a risk model and use it in the strategic planning process for all proposed IT
   projects. Selection criteria should include weighing risk for cost, benefits, schedule,
   technical, etc.

�	 Evaluate using DSS tools like Expert Choice to further assist SSA in its selection of
   IT projects. Expert Choice allows the user to take the intangibles of decisionmaking
   (experience, insight, and judgment) and weigh them against a customized set of
   criteria.

Finding 2 – Control Phase

�	 Redesign SSA’s Capital Planning and Investment Control Process to incorporate the
   processes for making budget, financial and program management decisions within
   the Agency into one integrated system. SSA could implement this recommendation
   through the use of the Information Technology Investment Portfolio System (I-TIPS)
   software (see Appendix C).

�	 Design and implement an IT project accountability system that: (a) captures all
   funds spent with budgeted cost; (b) allows expanded scheduling information like
   expected versus actual implementation date, including milestone dates; and
   (c) includes performance indicators like return on investment or any other benefit
   measures.

�	 Require benefits to be quantified and performance measures to be identified for
   major projects in SSA’s strategic planning guidance.



IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                    iii
�	 Request management information on the financial accounting of each project (spent
   to-date and the amount remaining to be spent), milestones, and expected
   implementation date.

�	 Perform variance analysis and exception reporting on cost and scheduling time
   frames.

Finding 3 – Evaluation Phase


�   Establish policies and procedures for conducting post-implementation reviews.


�   Perform post-implementation reviews on appropriate IT projects.



AGENCY COMMENTS
In response to our draft report, SSA generally agreed to explore and/or assess our
recommendations. Specifically, SSA plans to explore more systematic risk modeling
procedures for proposed IT projects by:

�   evaluating decision support software like Expert Choice;

�	 re-examining I-TIPS as a tool to collect, analyze and report IT project accountability
   information;

�	 establishing more detailed polices and procedures for conducting post-
   implementation reviews in 2001; and

�	 performing post-implementation reviews on appropriate IT projects. (See Appendix
   F for SSA’s comments.)




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                   iv
                                                             Table of Contents

                                                                                                                    Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 5

Selection Phase...................................................................................................... 5

Control Phase......................................................................................................... 7

    �    Integration.................................................................................................... 8

    �    IT Project Accountability System ................................................................. 9

    �    More Information for Monitoring Performance ........................................... 11

Evaluation Phase.................................................................................................. 12


CONCLUSIONS AND RECOMMENDATIONS .................................................... 14


APPENDICES


APPENDIX A – Excerpts from the Clinger-Cohen Act


APPENDIX B – The Federal Chief Information Officer’s Council


APPENDIX C – Information Technology Investment Portfolio System


APPENDIX D – Projects with High-Risk Ranking


APPENDIX E – External and Internal Project Costs


APPENDIX F – Agency Comments


APPENDIX G – OIG Contacts and Staff Acknowledgments





IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
                                                                   Acronyms

 BCP               Budget Call Process

 BEP               Budget Execution Process

 BER               Budget Execution Report

 CBA               Cost Benefit Analysis

 CCA               Clinger-Cohen Act

 CIO               Chief Information Officer

 DSS               Decision Support Software

 GAO               General Accounting Office

 GPRA              Government Performance and Results Act

 FY                Fiscal Year

 IRM               Information Resource Management

 IT                Information Technology

 ITS               Information Technology Systems

 I-TIPS            Information Technology Investment Portfolio System

 ITSRS             Information Technology Systems Review Staff

 IWS/LAN           Intelligent Work Station/ Local Area Network

 MCAS              Managerial Cost Accountability System

 OFAM              Office of Finance, Assessment and Management

 OSPI              Office of Systems Planning and Integration

 PIR               Post-Implementation Review

 RIBS              Resources and Integration Budget System

 RIMS              Risk Identification and Mitigation System

 SSA               Social Security Administration

 VISOR             Vital Signs and Observations Report





IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
                                                                   Introduction

OBJECTIVE
The objective of this audit was to evaluate the Social Security Administration’s (SSA)
Information Technology (IT) capital planning and investment control process for
compliance with the Clinger-Cohen Act of 1996 (CCA).

BACKGROUND
Clinger-Cohen Act: The CCA4 promotes improvements in the use of IT to support
agency missions and improves agency management processes for acquiring and
managing IT investments. Agency responsibilities defined in CCA include: (1) capital
planning and investment control; (2) performance/results-based management and
reporting requirements; (3) appointment of an agency Chief Information Officer (CIO);
and (4) exception reports on major IT acquisitions that have significantly deviated from
cost, performance, or scheduled goals (see Appendix A for example).

General Accounting Office issued guidance: In February 1997, the General
Accounting Office (GAO) issued guidance5 for evaluating Federal agencies’ IT
investment decisionmaking for implementing CCA. The GAO guidance outlines the
following three-phase process for capital planning and IT investments (see Appendix B).

SELECTION PHASE

The purpose of the Selection phase is for agency executives to create an optimal
portfolio of IT initiatives through assessing risk and return, which will enable an agency
to better prioritize current and proposed IT initiatives. Projects being proposed for
funding are initially screened to eliminate proposals that do not pass minimal
acceptance criteria. Proposals that pass this screening process have their costs,
benefits, and risks analyzed in-depth. Once this is accomplished, all of the projects are
compared against some common decision criteria and ranked based on their relative
benefits, costs and risks. Using this prioritized list as a guide, agency executives decide
which projects to fund.

CONTROL PHASE

During the Control phase, agency executives should be actively engaged in tracking all
of the projects in the investment portfolio. For an agency to achieve maximum benefits
from a project, while minimizing risks, the agency’s tracking systems should be
integrated with a capital planning and investment control process. Agency executives
4
    The CCA has also been referred to as the Information Technology Reform Act of 1996
5
 Assessing Risks and Returns: A Guide for Evaluating Federal Agencies’ IT Investment Decision-making,
GAO/AIMD-10.1.13, February 1997.


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                          1
should change a project’s course when necessary and incorporate their lessons learned
in the Selection phase to further refine and improve the process.

EVALUATION PHASE

The Evaluation phase “closes the loop” on the IT investment management process by
comparing actuals against estimates to assess performance and identify areas where
future decisionmaking can be enhanced. Lessons learned during the evaluation phase
should be geared toward modifying future selection and control decisions. Central to
this process is the post-implementation review with its evaluation of the project’s
historical record.



     S E L E C T IO N                  CO NTRO L                    E V A L U A T IO N
         PHASE                          PHASE                            PHASE



                                     LESSO NS LEARNED


SSA’s Capital Planning and IT Management Control Process

It should be noted that, before CCA was implemented, many of the key CCA IT
management reforms had already been in place at SSA for many years. For example,
SSA’s Systems Review Board was established in 1987 and chaired by SSA’s Chief
Financial Officer to provide independent oversight of major IT investments.

In response to CCA, SSA streamlined the IT management process by establishing the
CIO position and placing it with the Principal Deputy Commissioner.6 Also, SSA
transformed the Systems Review Board into the CIO Core Team, which is composed of
staff from key SSA components involved with IT investments and Information Resource
Management (IRM) issues. SSA established a larger CIO Advisory Council composed
of Executive Staff members to ensure Agencywide awareness of, and involvement in,
IT/IRM issues.

SSA’s IT capital planning and investment review process starts with the Office of
Strategic Management working with the CIO Core Team and the larger Executive Staff
to develop the Agency’s Strategic and Business Plans and define the key initiatives
required for implementation. SSA components develop resource plans for these key
initiatives and identify the resources required for their implementation.




6
 Effective October 5, 2000, the CIO position has changed and is now within the Office of the Deputy
Commissioner for Social Security.


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                             2
The components’ resource request plans are updated annually through SSA’s Budget
Call Process (BCP). The BCP starts with the Office of Systems issuing instructions and
guidelines for developing and submitting of resource requests for SSA’s IT budget.
Once the Office of Systems receives the component resource plans, it reviews and
consolidates components requests, determines whether proposed IT investments
comply with SSA’s IT architecture, and formulates the final IT budget submission. The
Deputy Commissioner for Systems submits a prioritized proposed IT budget and project
justifications to the Office of Finance, Assessment and Management (OFAM).

The Information Technology Systems Review Staff (ITSRS), a component of OFAM,
independently analyzes and evaluates the proposed IT budget and provides its
recommendations to the CIO. Once the CIO approves the proposed IT initiative, ITSRS
tracks the IT investment through the annual Budget Execution Process (BEP). The
BEP consists of ITSRS’ monitoring the project to ensure IT funding does not exceed the
annual approved budgeted amount. When requested funding exceeds the annual
budgeted amount, ITSRS makes recommendations to the CIO. The CIO must approve
all funding increases that are $100,000 over the annual budgeted amount.

SCOPE AND METHODOLOGY
The objective of this review was to evaluate SSA’s IT capital planning and investment
review process for compliance with the CCA of 1996. To accomplish our objective, we:

�	 Obtained and reviewed previous Office of the Inspector General and GAO audit
   reports.

�	 Reviewed applicable laws and guidelines. For example, the CCA; Office of
   Management and Budget Circulars A-94, Guidelines and Discount Rates for Benefit-
   Cost Analysis of Federal Programs, and A-11, Preparation and Submission of
   Budget Estimates (Exhibits 42, 300A, and 300B); and the Statement of Federal
   Financial Standards Number 10.

�	 Reviewed critical documents, for example, Cost Benefit Analysis (CBA) Instructions,
   Strategic Planning Process, Information Technology Systems (ITS) BCP, and the
   Information Technology Investment Portfolio System (I-TIPS) (see Appendix C) and
   other documents.

�   Interviewed pertinent SSA Headquarters staff within OFAM and Systems.

�	 Conducted phone interviews with staff from the Departments of Labor, Housing and
   Urban Development, and Treasury as well as the General Services and Small
   Business Administrations.

�	 Reviewed seven IT projects through SSA’s IT capital planning and investment
   control process and evaluated the results. We selected the projects from SSA’s
   February 9, 1999, key initiative schedule. The schedule had three different priority


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                 3
   levels, with level I having the highest priority. We selected four projects from level I,
   two projects from level II and one project from level III.

�	 Performed other analysis in support of our conclusions for example, SSA’s 5-Year
   Systems Plan for missing return on investment information, etc.

We conducted our fieldwork at SSA Headquarters in Baltimore, Maryland, from
January 1999 through March 2000. We conducted this audit in accordance with
generally accepted government auditing standards. The entities audited were ITSRS
within the OFAM and the Office of Systems Planning and Integration (OSPI) within the
Office of the Deputy Commissioner for Systems.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                      4
                                            Results of Review

The results of our testing of SSA’s IT Capital Planning and Investment Control Process
and interviews with SSA personnel have identified several improvements SSA needs to
consider regarding it’s implementation of CCA. Overall, SSA’s IT capital planning and
investment process, does not fully support a capital planning and investment control
process as envisioned by GAO and the Federal CIO Council for compliance with CCA.
Improvements are needed in the Selection, Control, and Evaluation phases of the GAO
model and the Federal CIO Council’s recommended IT capital planning and investment
control process. Using the GAO model, we have outlined our findings by phase.

SELECTION PHASE

Sections 5122(a), 5122(b)(3), and 5122(b)(5) of the CCA require proposed IT projects
be ranked for risk and return. However, SSA’s Strategic Planning Process does not
require an assessment of risk and return for proposed IT projects. Also, SSA had not
established a documented process (risk modeling) for ranking (a numerical subjective
ranking) its IT projects for risk and return. Categories of risk and return would include:
(1) technical risk; (2) scheduling risk; (3) benefit-cost impact (low return on investment);
and (4) quality of cost estimates. Finally, SSA was not using any decision support
software (DSS) to assist in its decisionmaking process.

IT projects with high risks are attributable to: (1) scope and requirements not being well
defined; (2) benefits not being clearly identified; and (3) soft cost estimates that could
result in significant exposure to additional cost and implementation delays. Based on
our analysis of the seven IT projects, we identified three projects that we believe should
have been classified as high-risk because of their complexity.

Appendix D shows the risk ranking for three projects we rated overall as being very
risky (high-risk) projects.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                      5
                  Chart 1—Seven IT Projects Reviewed


  Project
 Special       Resource        Overall
 Expense      Accounting        Rated
   Item         System          Risky
 Number         Number         Projects                     Project Name
    567          2611            Yes        Expanded Electronic Wage Reporting System
    145           7871                      Financial Accounting Tracking Systems
    702           2590                      Management Information for Intelligent Work
                                            Station/Local Area Network (IWS/LAN)
    704           6412                      Policy Net/Policy Repository
    740           5022                      Video Teleconferencing Service
    529           6863            Yes       Integrated Human Resources System
  Various       Various           Yes       Re-engineering Disability System


Because these three projects started before CCA’s August 1996 effective date, SSA
was not required to perform risk assessments. However, if SSA had performed risk
assessments, it may have identified these projects as high-risk. This may have caused
the Agency to re-evaluate the selection and investment made in these systems until the
related risk became more manageable and returns were better quantified. In addition,
we believe SSA would have been better able to anticipate the increased cost and
project time delays these three projects experienced.

SSA informed us it did not perform a ranking and risk assessment because the
assessment would have been subjective, and the Agency did not see much value in
doing it. SSA also did not know who in the Agency would perform the assessment.
SSA further added that because it usually does a pilot first, it is in effect performing a
ranking and risk assessment to identify and minimize risk by determining whether it is
cost-beneficial to implement the IT project. However, based on our review of SSA’s IT
projects, once pilot money has been spent, SSA has traditionally continued to spend
money until the project is implemented. We could not find a project that had been
terminated after the pilot within the last 3 years. Project sponsors and managers have
viewed pilot funding as approval for implementation.

We conducted a meeting with SSA on November 15, 1999 to discuss our findings. At
that meeting, SSA stated it was implementing a Risk Identification and Mitigation
System (RIMS) it believed would provide an adequate assessment of risk. We
reviewed RIMS guidelines, procedures and its placement in SSA’s overall IT planning
and investment control process and concluded RIMS is not the solution. RIMS is


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                    6
intended to be used by the project manager after SSA’s senior management has
approved the project for development. Also, RIMS does not specifically prompt project
managers to assess risk in the following categories: software, hardware, technology,
cost, schedule, benefits, and resources. If SSA were to use RIMS for risk modeling,
RIMS would have to be modified to require project managers to assess risk for each
category. Also, RIMS would have to be moved from the Control phase to the Selection
phase (strategic planning process) so senior SSA managers can assess risk before a
proposed IT project is approved and funds disbursed. SSA needs to develop risk-
modeling techniques in the Selection phase when making decisions about proposed IT
projects, as required by CCA.

Other agencies we contacted4 were using DSS like “Expert Choice” to assist them in
selecting the right portfolio of IT investments. Using DSS helps build consensus
because decisionmakers have to assess each project’s criteria, define parameters, and
weigh judgments.

CONTROL PHASE

Section 5122(b)(2) of the CCA requires an integrated process (system) to support an
agency’s capital planning and investment control process. SSA’s tracking systems
were not integrated to support a comprehensive capital planning and investment control
process. The lack of systems integration is directly attributable to the following.

�	 SSA had not captured all cost information for IT projects as required by section
   5002(3)(B) of the CCA. SSA has not established an IT project accountability system
   to obtain all cost information.

�	 SSA had not continually monitored in-process reviews for performance, as required
   under sections 5122(b)(6) and 5125(c)(2) of the CCA. SSA has not compared its
   project cost and time expended in its projects to their expected amounts. Since SSA
   does not perform these types of variance analysis, it cannot report exceptions, when
   costs increase by 10 percent or when scheduled dates slip by 6 months.




4
    Department of the Treasury, United States Customs Service, General Services Administration.


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                         7
Integration

Chart 2 shows some of SSA’s stand-alone tracking systems, their use, and the SSA
component responsible for this system.

                          Chart 2—Tracking Systems
           System                             Use                       Component

 Executive Management           IT project planning, GPRA Office of Systems
 Information System             strategic planning, financial
                                information, operational
                                statistics, etc.
 Procurement Tracking           Monitoring status of IT
 System                         requisitions                    Office of Systems
 Intranet sites like Vital
 Signs and Observations         Monitoring status of some
 Report                         IT projects                     Office of Systems
 Resource Accounting            Reporting and analyzing
 System                         time against IT projects        Office of Systems
                                Identifying commitments,
 Financial Accounting           obligations and
 System                         expenditures                    Office of Finance

Each tracking system captures a portion of the overall data for IT project development.
These systems are not integrated. As a result of this fragmented approach, SSA’s
systems do not support the capital planning and investment control process as
envisioned by GAO, and the CIO Council for CCA compliance.

To address the need for an integrated system, the Federal CIO Council has
recommended agencies consider using the federally funded software, I-TIPS (see
Appendix C for details). I-TIPS provides a convenient, central repository (data base) for
IT project-related information accessible through the Intranet. In March 1999, SSA
evaluated the usefulness of I-TIPS. At that time, SSA did not recommend I-TIPS
because it would neither replace SSA’s systems nor provide automated links to retrieve
data from these systems. Therefore, I-TIPS would result in a significant data entry
workload. SSA further stated I-TIPS was designed to capture all costs associated with
a project, including in-house personal costs. SSA did not routinely capture total cost
information for most of its major projects. Furthermore, I-TIPS requires benefits to be
quantified and performance measures identified for major projects. SSA’s strategic
planning guidance does not require this information to be provided for Agency key
initiatives, and not having this information limits the usefulness of I-TIPS for SSA.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                 8
SSA has acknowledged its tracking systems are not integrated to fully support a capital
planning and investment control process. However, SSA’s position has been to take a
“wait and see” attitude if other large Federal agencies have successfully implemented
an integrated capital planning and investment control system. We believe SSA should
re-evaluate this position now that other large agencies like the General Services
Administration, Department of Energy, and Department of Agriculture have successfully
implemented an integrated capital planning and investment control process using
I-TIPS. I-TIPS would provide SSA the much-needed integration to support IT
decisionmaking. In addition, I-TIPS would require SSA to begin the discipline of
collecting the full range of information (total costs, quantified benefits, performance
measures, etc.) on investments called for by CCA.

IT Project Accountability System

Ability needed to determine project cost to-date?

For each of the seven IT projects we reviewed, we asked SSA the cumulative amount it
had spent on the project to-date and how much more it planned to spend. SSA said this
type of information was not available in a single management information source and
would require SSA to look at several individual systems and retrieve several years
worth of data to obtain the answer. To readily retrieve this information, SSA needs an
IT project accountability system for capturing and storing various types of cost by year
(that is, internal labor, training, travel, external purchases etc.). We believe not having
this type of financial information for each IT project has limited SSA’s ability to monitor
and evaluate performance via variance analysis and exception reporting.

We obtained information from various systems to determine the cumulative amount
SSA had actually spent to-date for the seven projects we reviewed. We estimate SSA
spent about $118.3 million with external costs of $77.3 million and internal costs of
$41 million. Appendix E shows the external and internal costs and work years as of
August 14, 1999, for each of the seven projects.

The Budget Execution Report (BER) only serves as documentation of CIO approval for
external cost decisions in the Information Technology Systems (ITS) budget. We could
not find a similar approval document for internal costs. As a result, the CIO had not
approved all IT investment cost, that is, internal cost. This would be about $41 million
(35 percent of the total estimated project cost) for the seven IT projects in our review.

ITSRS asserted that, since the CIO was also the Principal Deputy Commissioner, the
CIO had approval authority over all internal IT cost budget decisions. We agree the
Principal Deputy Commissioner5 had the authority; however, we could not find
documented evidence of CIO approval for internal IT cost budget decisions similar to
the BER. For example, if a project manager requests an additional $100,000 in

5
 Effective October 5, 2000, the CIO position has changed and is now within the Office of the Deputy
Commissioner for Social Security.



IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                             9
contractor support (external cost) over the budgeted amount, the request would have to
go through ITSRS for review, and CIO approval would be documented in the BER.
However, if the same project manager were able to get the support internally, there
would be no documented CIO approval for the transfer.

Another example of the importance of having a project accountability system that can
capture all internal costs for CIO review and approval involved the management
information system for the IWS/LAN project (Special Expense Item 702). The IWS/LAN
management information project incurred internal costs five times greater than its
external costs. Yet only the external costs were readily available for CIO review and
approval.

The purpose of this project is to build the hardware/software infrastructure that will allow
the modernization of the management information environment and the integration of
management information data. The end-users, through their desktops, can query and
analyze Agencywide data organized by subject matter. As of August 14, 1999, the
Office of Systems’ internal cost (about 85 percent of the total cost) was about
$6.8 million for 97.1 workyears with external costs of only about $1.2 million. ITSRS
has not recommended any additional external funding (for the purchase of hardware
and software) until the Office of Systems provides a CBA justification. While we agree
with ITSRS’ position, the Office of Systems has already spent over $6 million in internal
resources on this project. If SSA had a project accountability system, internal cost
information would be available to help management analyze total cost information and
make informed decisions.

On November 15, 1999, we met with SSA to discuss our findings. SSA felt its proposed
Managerial Cost Accountability System (MCAS) would address our concern about the
lack of an IT project accountability system. We reviewed MCAS background, scope,
functionality, and project status and concluded it will probably address SSA’s need for
an IT project accountability system. However, the implementation strategy for MCAS is
complex and has four major parts. According to the latest status report, SSA has been
concentrating on the first major part, which is the renovation of the Cost Analysis
System. For this System, SSA has completed two of the four scheduled releases. The
last 2 releases are scheduled for the second and third quarters of
Fiscal Year (FY) 2001. The other three major parts are still in the planning and analysis
stage. Incorporating functionality for an IT project (cost) accountability system into
MCAS is probably several years in the future.

How much will be spent in the future?

We could not obtain information on SSA’s anticipated spending level for each of these
IT projects or when these projects are expected to be completed because SSA does not
know. Historically, SSA has underestimated the final costs and target implementation
dates of IT projects. We found part of the reason has been in the initial CBA’s
documents that justified the approval of the IT projects. The CBAs have historically
been revised upward to reflect unanticipated cost by sponsors and project managers.



IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                 10
We attribute the unanticipated cost to IT project scopes and functionality not being well
defined. Also, SSA has not held sponsors and project managers accountable for poor
cost estimates.

SSA accepts the underestimated CBA cost practice because benefits have to be
revised through new CBAs to justify the higher cost. We found that benefit methodology
assumptions usually can be changed to justify the additional cost. For example, an
internal communication on the Integrated Human Resource System suggests SSA may
need to extend the system’s life so additional benefits can be added to compensate for
amount of the system’s delay or cost overrun.

More Information for Monitoring Performance

SSA has not continually monitored in-process reviews for performance. One reason
has been a general lack of target indicators. Specifically, we found the following
performance monitoring information was missing.

�	 None of the six IT projects we reviewed contained an ITSRS analysis concerning
   milestone dates with specific deliverables.

�	 Of the seven proposed key IT initiatives presented at the Executive Planning Board
   Meeting on February 9, 1999, none had a quantified benefit. Only one had an
   estimated cost.

�	 For SSA’s July 12, 1999 5-Year Systems Plan, 268 (about 80.7 percent) of the
   332 line item tasks scheduled for completion by the end of FY 2000 had no return-
   on-investment information. Even the Deputy Commissioner for Systems in a
   February 26, 1999, memorandum to the Deputy Commissioners raised the question
   whether SSA should continue to work on the items in the 5-Year Systems Plan with
   no return-on-investment.

For the seven (multi-year) projects we reviewed, SSA had not performed cost and
scheduling variance analyses from the start of the project . We noted, however, that
SSA was performing cost variance analyses on selected IT projects for current year
activity only (see discussion below). Variance analysis compares estimates with
actuals. Gaps or differences should be analyzed and explanations documented. In
connection with variance analyses, SSA has not performed any exception reporting, for
example, costs increased by 10 percent or a schedule slipped by 6 months.

SSA responded it is difficult to analyze variances in cost or schedules because the
expected total IT project cost (base period) and implementation schedule keep
changing through revised CBAs during the life of the IT project. This is why SSA should
monitor its cost and schedule variances. Lessons learned from variance analyses
should be built into the criteria for the Selection and Control phases to improve the IT
planning and investment control process. SSA, however, believes it is continually
monitoring performance and cites the investment review process, and various



IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)               11
management information reports on SSA’s Intranet site, such as the Vital Signs and
Observations Report (VISOR)6, and the Resources and Integration Budget System
(RIBS), as tools for monitoring performance. While we agree these are important tools,
they are not always timely or do not provide information about the total performance
from the start of the project to-date.

From our review of ITSRS’ analysis, we do not believe ITSRS asks to see deliverables
or milestone dates unless the sponsor and project manager have requested more
money than planned and there is a cost overrun for the project. An investment review is
only triggered when there actually is a cost overrun problem. We could not find where
an investment review had been triggered for other reasons, such as the user not getting
the expected functionality (performance) or significant delays in the expected
implementation. SSA should be continually monitoring a project’s performance and not
wait until a cost overrun occurs.

Finally, we would like to recognize SSA’s efforts in reporting cost variance information
under RIBS. This is a good start but SSA needs to go further. Variance information is
only available for current year activity (current budget to actual) and needs to be
expanded to include prior year’s variances to show total variance on the project to-date.
Also, RIBS is only available for those IT projects that have been identified by SSA as
having the highest priority. We reviewed the Agency’s 30 highest priority projects for
the week ending May 29, 1999. Our analysis indicated critical information missing for
savings and workyear estimates:

�     4 projects were missing estimated workyears,

�     21 projects were missing savings information, and

�     4 projects had significantly inaccurate workyear estimates.

The second point and probably the most significant, is the Agency’s highest priority
projects only accounted for 658 (about 39 percent) of the 1,672 workyears available in
FY 1998 by the Office of Systems to work on IT projects. Therefore, more than
60 percent of the workyears in FY 1998 were not controlled for cost information such as
a variance analysis.

EVALUATION PHASE

Performing post-implementation reviews is a requirement under sections 5122(b)(1) and
5125(c)(2) of the CCA. SSA has not established a post-implementation review process
(policies and procedures) nor has it targeted any IT projects for post-implementation
review except the review of the IWS/LANs project requested by Congress. More
importantly, SSA has missed an opportunity to provide feed back to improve its
investment management process. Valuable lessons learned could be incorporated into


6
    VISOR is a management advisory report being maintained by the OSPI.


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)              12
the Selection and Control phases to help minimize risk and maximize benefits on future
IT projects.

Specifically, lessons learned for why SSA has often historically under-estimated total IT
cost should be built back into the selection criteria to help ensure greater
implementation success of future projects. This was evidenced by the cost over-runs
for the Electronic Wage Reporting and Integrated Human Resources Systems. Also,
SSA should determine why projects, such as the Re-engineered Disability System, had
to be redirected, costing SSA about $35 million.

ITSRS has acknowledged its responsibility for performing post-implementation reviews.
ITSRS, however, has not been able to obtain the staff necessary to perform this
function because of budget constraints.

ITSRS further stated that through SSA’s Target Investment Review Process, it felt the
Agency had a post-implementation review (PIR) process established. Using GAO
criteria, we evaluated SSA’s one-half page of broad guidelines. The following lists
some of the GAO questions we used to determine whether SSA had an established PIR
process.

1. Does SSA have a defined, documented process for conducting PIRs of IT projects?

   �   Is the purpose of the PIR process clearly explained and communicated?

   �	 Is the process clear about when PIRs are to be conducted? Are regular PIRs
      required to ensure completed projects are reviewed in a timely manner?

   �	 Does the process delineate roles, responsibilities, and authorities for people and
      offices involved in conducting the PIRs?

   �	 Does the process stipulate how conclusions and recommendations resulting from
      PIRs are to be communicated to and reviewed by senior management?

2. 	 Does SSA have a standardized methodology for conducting PIRs? At a minimum, is
     there an assessment of customer satisfaction, mission/programmatic impact, and
     technical/capability?

3. 	 What steps does SSA require to ensure PIRs are conducted independently and
     objectively? Are the results of the PIRs validated or verified?

We could not answer yes to any of these questions and therefore concluded that
one-half page of broad SSA guidelines was not sufficient to be considered as having
established PIR policies and procedures.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)              13
                                        Conclusions and
                                               Recommendations
SSA recognizes the need to improve its IT capital planning and investment control
process for compliance with the CCA. Some steps SSA has taken include:

�	 approving through SSA’s Strategic Planning Process proposed IT projects for
   strategic fit against the Agency’s mission and goals;

�	 establishing a CIO to foster Agencywide awareness of, and involvement in, IT
   issues; and

�	 requiring through SSA’s BCP, that major IT projects be grouped into smaller more
   manageable project phases like prototyping, piloting, limited implementation before
   full SSA implementation.

However, results of our testing of SSA’s IT capital planning and investment control
process and interviews with SSA personnel have identified several improvements SSA
needs to consider regarding it’s implementation of CCA. We found overall, SSA’s IT
capital planning and investment process does not fully support GAO’s vision and the
Federal CIO Council for compliance with CCA. Improvements are needed in the
Selection, Control, and Evaluation phases of the GAO model and the Federal CIO
Council’s recommended IT capital planning and investment control process.

First, SSA needs to rank, select, and develop its IT projects based on a formal
methodology, that considers risk and return. SSA has no such methodology and, as a
result, was not able to effectively anticipate the increased costs and project time delays
it encountered in all three high-risk projects we reviewed. Because these three projects
began before CCA became effective, SSA was not required to complete a formal risk
assessment. However, good business practice and the subsequent passage of CCA
call for the use of a formal risk assessment.

In our November 15, 1999, meeting with SSA to discuss our findings, SSA stated it was
implementing RIMS and believed RIMS would provide SSA with an adequate
assessment of risk. Our review found RIMS is not the solution. RIMS is designed to be
used by the project manager in the Control phase after the project has already been
approved for funding. CCA and good business practice call for a risk assessment to be
done before a project is approved for funding. Also, SSA should begin evaluating the
use of DSS to assist the Agency in the selection of proposed IT projects. This would
result in SSA putting more structure into its decision selection process.

Second, SSA should begin planning for an overall integration of its tracking systems into
a comprehensive IT capital planning and investment control process. SSA’s


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)               14
management information systems, critical for planning, capturing cost and tracking
progress of its systems development efforts, are incomplete and fragmented throughout
its components. As a result, SSA’s management responsible for approving and
monitoring the development of its systems is not being provided comprehensive and
complete information on which to base its decisions. This type of integrated system is a
requirement under section 5122(b)(2) of the CCA. SSA, through the I-TIPS software,
could effectively develop a comprehensive IT capital planning and investment control
process like other agencies.

SSA’s lack of systems integration has also contributed to other conditions the Agency
needs to consider. Specifically, SSA has not established an IT project accountability
system for capturing and analyzing all costs associated with an IT project. Also, SSA
should be requesting more management information to perform variance analysis and
exception reporting as ways to improve its ability to monitor IT projects. In a meeting
with SSA on November 15, 1999, SSA believed its planned MCAS would address our
concern of an IT project accountability system. We agree; however, incorporating an IT
project accountability system into MCAS is several years in the future.

Third, SSA needs to develop policies and procedures for post-implementation reviews
and become more proactive by targeting several completed IT projects for review. PIRs
reviews are a requirement under sections 5122(b)(1) and 5125(c)(2) of the CCA.
ITSRS recognizes its responsibility to perform these reviews; however, because of
budget constraints has not been able to obtain the staff necessary to perform this
function.

We recommend SSA:

Finding 1- Selection Phase

1. 	 Develop a risk model and use it in the strategic planning process for all proposed IT
     projects. Selection criteria should include weighing risk for cost, benefits, schedule,
     technical, etc.

2. 	 Evaluate using DSS tools like Expert Choice to further assist SSA in its selection of
     IT projects. Expert Choice allows the user to take the intangibles of decisionmaking
     (experience, insight, and judgment) and weigh them against a customized set of
     criteria.

Finding 2 – Control Phase

3. 	 Redesign SSA’s Capital Planning and Investment Control Process to incorporate the
     processes for making budget, financial and program management decisions within
     the Agency into one integrated system. SSA could implement this recommendation
     through the use of the I-TIPS software (see Appendix C).




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                  15
4. 	 Design and implement an IT project accountability system that; (a) captures all
     funds spent with budgeted cost; (b) allows expanded scheduling information like
     expected versus actual implementation date, including milestone dates; and (c)
     includes performance indicators like return on investment or any other benefit
     measures.

5. 	 Require benefits to be quantified and performance measures to be identified for
     major projects in SSA’s strategic planning guidance.

6. 	 Request management information on the financial accounting of each project (spent
     to-date and the amount remaining to be spent), milestones, and expected
     implementation date.

7. 	 Perform variance analysis and exception reporting on cost and scheduling time
     frames.

Finding 3 – Evaluation Phase

8. Establish policies and procedures for conducting post-implementation reviews.

9. Perform post-implementation reviews on appropriate IT projects.


AGENCY COMMENTS
In response to our draft report, SSA generally agreed to explore and/or assess our
recommendations. Specifically, SSA plans to explore more systematic risk modeling
procedures for proposed IT projects by:

   �   evaluating decision support software like Expert Choice;

   �	 re-examining I-TIPS as a tool to collect, analyze and report IT project
      accountability information;

   �	 establishing more detailed polices and procedures for conducting post-
      implementation reviews in 2001; and

   �	 performing post-implementation reviews on appropriate IT projects. (See
      Appendix F for SSA’s comments.)

However, in its response to recommendation 1, SSA stated OIG’s conclusion that the
Agency did not recognize the risks associated with three of its projects is incorrect.
SSA believes that while a formal risk assessment was not done for these projects, the
Agency was aware of the risk involved, and it considered these risks in its discussions
and decision making.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                 16
OFFICE OF THE INSPECTOR GENERAL RESPONSE
We disagree with SSA’s implication that it took sufficient steps assessing the risks for
the three projects. We also take issue that the Agency was aware of the risks involved,
and considered these risks in its discussions and decision making.

The OIG believes that a risk assessment at the beginning of these projects, as now
required under CCA, would have helped SSA to better understand the risks of each
project before the Agency had committed significant resources. Understanding the risks
would also have enabled the Agency to better assess the projects’ scope and
functionality.

It is not enough that certain individuals may have been informally aware of some risks
as these projects progressed. For example, the incremental investment reviews
requested by the CIO were initiated several years after the projects’ implementation and
by then the projects were already significantly over budgeted. Furthermore, once the
Agency makes a decision to proceed with the projects, the risks involved need to be
formally disseminated among appropriate management and project team members.
Management and project members can then take steps necessary to deal with and
minimize the risks associated with each project.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)             17
                                       Appendices





IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
                                                                            Appendix A

Excerpts from the Clinger-Cohen Act
SEC. 5002. DEFINITIONS

In this division:
    (1) DIRECTORThe term "Director'' means the Director of the Office of
Management and Budget.
    (2) EXECUTIVE AGENCYThe term "executive agency'' has the meaning given
that term in section 4(1) of the Office of Federal Procurement Policy Act (41 U.S.C.
403(1)).
    (3) INFORMATION TECHNOLOGY—(A) The term "information technology (IT)'',
with respect to an executive agency means any equipment or interconnected system or
subsystem of equipment, that is used in the automatic acquisition, storage,
manipulation, management, movement, control, display, switching, interchange,
transmission, or reception of data or information by the executive agency. For purposes
of the preceding sentence, equipment is used by an executive agency if the equipment
is used by the executive agency directly or is used by a contractor under a contract with
the executive agency which (i) requires the use of such equipment, or (ii) requires the
use, to a significant extent, of such equipment in the performance of a service or the
furnishing of a product.
        (B) The term "IT'' includes computers, ancillary equipment, software, firmware
and similar procedures, services (including support services), and related resources.
        (C) Notwithstanding subparagraphs (A) and (B), the term "IT'' does not include
any equipment that is acquired by a Federal contractor incidental to a Federal contract.
    (4) INFORMATION RESOURCESThe term "information resources'' has the
meaning given such term in section 3502(6) of title 44, United States Code.
    (5) INFORMATION RESOURCES MANAGEMENTThe term "information
resources management'' has the meaning given such term in section 3502(7) of title 44,
United States Code
    (6) INFORMATION SYSTEMThe term "information system'' has the meaning
given such term in section 3502(8) of title 44, United States Code.
    (7) COMMERCIAL ITEMThe term "commercial item'' has the meaning given that
term in section 4(12) of the Office of Federal Procurement Policy Act (41 U.S.C.
403(12)).




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)             A-1
SEC. 5122. CAPITAL PLANNING AND INVESTMENT CONTROL

    (a) DESIGN OF PROCESSIn fulfilling the responsibilities assigned under section
3506(h) of title 44, United States Code, the head of each executive agency shall design
and implement in the executive agency a process for maximizing the value and
assessing and managing the risks of the information technology acquisitions of the
executive agency.
    (b) CONTENT OF PROCESSThe process of an executive agency shall—
       (1) provide for the selection of information technology investments to be made
by the executive agency, the management of such investments, and the evaluation of
the results of such investments;
       (2) be integrated with the processes for making budget, financial, and program
management decisions within the executive agency;
       (3) include minimum criteria to be applied in considering
whether to undertake a particular investment in information systems, including criteria
related to the quantitatively expressed projected net, risk-adjusted return on investment
and specific quantitative and qualitative criteria for comparing and prioritizing alternative
information systems investment projects;
       (4) provide for identifying information systems investments that would result in
shared benefits or costs for other Federal agencies or State or local governments;
       (5) provide for identifying for a proposed investment quantifiable measurements
for determining the net benefits and risks of the investment; and
       (6) provide the means for senior management personnel of the executive
agency to obtain timely information regarding the progress of an investment in an
information system, including a system of milestones for measuring progress, on an
independently verifiable basis, in terms of cost, capability of the system to meet
specified requirements, timeliness, and quality.

SEC. 5125. AGENCY CHIEF INFORMATION OFFICER

     (a) DESIGNATION OF CHIEF INFORMATION OFFICERS (CIO)—Section 3506 of
title 44, United States Code, is amended—
        (1) in subsection (a)
           (A) in paragraph (2)(A), by striking out "senior official'' and inserting in lieu
               thereof "CIO'';
           (B) in paragraph (2)(B)—
                (i) by striking out "senior officials'' in the first sentence and inserting in
            lieu thereof "CIO'';
                (ii) by striking out "official'' in the second sentence and inserting in lieu
            thereof "CIO''; and
                (iii) by striking out "officials'' in the second sentence and inserting in lieu
            thereof "CIO''; and
           (C) in paragraphs (3) and (4), by striking out "senior official'' each place it
               appears and inserting in lieu thereof "CIO''; and
        (2) in subsection (c)(1), by striking out "official'' in the matter preceding
subparagraph (A) and inserting in lieu thereof "CIO''.



IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                    A-2
    (b) GENERAL RESPONSIBILITIESThe CIO of an executive agency shall be
responsible for—
        (1) providing advice and other assistance to the head of the executive agency
and other senior management personnel of the executive agency to ensure that
information technology (IT) is acquired and information resources are managed for the
executive agency in a manner that implements the policies and procedures of this
division, consistent with chapter 35 of title 44, United States Code, and the priorities
established by the head of the executive agency;
        (2) developing, maintaining, and facilitating the implementation of a sound and
integrated IT architecture for the executive agency; and
        (3) promoting the effective and efficient design and operation of all major
information resources management processes for the executive agency, including
improvements to work processes of the executive agency.
    (c) DUTIES AND QUALIFICATIONS—The CIO of an agency that is listed in
section 901(b) of title 31, United States Code, shall—
        (1) have information resources management duties as that official's primary
            duty;
        (2) monitor the performance of IT programs of the agency, evaluate the
performance of those programs on the basis of the applicable performance
measurements, and advise the head of the agency regarding whether to continue,
modify, or terminate a program or project; and
        (3) annually, as part of the strategic planning and performance evaluation
process required (subject to section 1117 of title 31, United States Code) under section
306 of title 5, United States Code, and sections 1105(a)(29), 1115, 1116, 1117, and
9703 of title 31, United States Code—
                (A) assess the requirements established for agency personnel regarding
        knowledge and skill in information resources management and the adequacy of
        such requirements for facilitating the achievement of the performance goals
        established for information resources management;
                (B) assess the extent to which the positions and personnel at the
        executive level of the agency and the positions and personnel at management
        level of the agency below the executive level meet those requirements;
                (C) in order to rectify any deficiency in meeting those requirements,
        develop strategies and specific plans for hiring, training, and professional
        development; and
                (D) report to the head of the agency on the progress made in improving
        information resources management capability.
    (d) INFORMATION TECHNOLOGY ARCHITECTURE DEFINEDIn this section,
the term "information technology architecture'', with respect to an executive agency,
means an integrated framework for evolving or maintaining existing IT and acquiring
new IT to achieve the agency's strategic goals and information resources management
goals.
    (e) EXECUTIVE LEVEL IV—Section 5315 of title 5, United States Code, is
amended by adding at the end the following:




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)             A-3
            "Chief Information Officer, Department of Agriculture.
            "Chief Information Officer, Department of Commerce.
            "Chief Information Officer, Department of Defense (unless the official
   designated as the Chief Information Officer of the Department of Defense is an
   official listed under section 5312, 5313, or 5314 of this title).
            "Chief Information Officer, Department of Education.
            "Chief Information Officer, Department of Energy.
            "Chief Information Officer, Department of Health and Human Services.
            "Chief Information Officer, Department of Housing and Urban Development.
            "Chief Information Officer, Department of Interior.
            "Chief Information Officer, Department of Justice.
            "Chief Information Officer, Department of Labor.
            "Chief Information Officer, Department of State.
            "Chief Information Officer, Department of Transportation.
            "Chief Information Officer, Department of Treasury.
            "Chief Information Officer, Department of Veterans Affairs.
            "Chief Information Officer, Environmental Protection Agency.
            "Chief Information Officer, National Aeronautics and Space Administration.
            "Chief Information Officer, Agency for International Development.
            "Chief Information Officer, Federal Emergency Management Agency.
            "Chief Information Officer, General Services Administration.
            "Chief Information Officer, National Science Foundation.
            "Chief Information Officer, Nuclear Regulatory Agency.
            "Chief Information Officer, Office of Personnel Management.
            "Chief Information Officer, Small Business Administration.''




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)            A-4
                                                                            Appendix B

The Federal Chief Information Officer’s Council
The Federal Chief Information Officer’s (CIO) Council has endorsed the General
Accounting Office’s guidance as “best practices” for implementing the Clinger-Cohen
Act of 1996. The Federal CIO Council was established under Executive Order 13011,
Federal Information Technology. The Council serves as the principal interagency forum
for executive agency CIOs to:

�	 develop recommendations for overall Federal information technology management
   policy, procedures, and standards;

�	 share experiences, ideas, and promising practices, including work process redesign
   and the development of performance measures, to improve the management of
   information resources; and

�	 identify opportunities, make recommendations for, and sponsor cooperation in using
   information resources.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
                                                                             Appendix C

Information Technology Investment Portfolio
System
The Information Technology Investment Portfolio System (I-TIPS) is a Government
owned innovative web-based decision support and project management tool for
managing and tracking information technology (IT) investments. The Federal Chief
Information Officer Council has recommended I-TIPS for agency heads to manage
there IT investments in accordance with the Clinger-Cohen Act of 1996. The software
assists managers and staff involved in IT planning to assess IT initiatives in terms of
cost, risk, and expected returns, and to determine the appropriate mix of IT investments
regarding these and other organizational and technological considerations. Specifically,
I-TIPS will allow the user to:

�	 implement an effective managing and tracking process for selecting, controlling and
   evaluating IT investments;

�   apply industry and Government best practices to its IT investment strategy;

�	 consolidate existing IT data bases and create a single repository for all IT
   investments;

�   construct a cost-effective portfolio of IT investments; and

�	 comply with Federal laws and mandates pertaining to IT investments and the IT
   capital planning process.

I-TIPS is portable to a variety of operating environments and is in use at several Federal
organizations.7 The Social Security Administration evaluated using I-TIPS in
March 1999 and elected not to use this software because I-TIPS would result in a
significant data entry workload for the Agency.




7
 The Departments of Housing and Urban Development, Agriculture, and Energy, the General Services
Administration, and the Small Business Administration.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
                                                                                                                    Appendix D


Projects With High-Risk Ranking
We used General Accounting Office’s8 risk modeling guidelines in making our risk determination. We believe that the
high-risk ranking would have prevented the selection of these systems for investment until the risk became more
manageable and returns better quantified.


    SEI* Number/       Organizational                                                                         Original
    Project Name           Risk                  Cost Sensitivity Risk              Schedule Risk            Implement            Revised
                                                                                                                Date             Implement
SEI 567                Moderate Risk          High Risk                             Unknown Risk              Unknown             Unknown
Expanded                                      Project is complex
Electronic
Wage                                          Cost estimates not refined
Reporting                                     For example, cost increase
                                              from $15 to $32 million in
                                              one budget cycle

*SEI - Special expense item




8
 Assessing Risks and Returns: A Guide for Evaluating Federal Agencies’ IT Investment Decision-making, GAO/AIMD-10.1.13, issued
February 1997 appendix II pp98-103.
IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                                                             D-1
  SEI
Number/                                                                                                  Original    Revised
Project                                                                                                Implement    Implement
 Name           Organizational Risk          Cost Sensitivity Risk             Schedule Risk               Date         Date
 SEI 529     High Risk                      High Risk                       High Risk                  4 phased   1) 1/99, (still
  IHRS*                                                                                                release    in pilot)
                                                                            Project execution likely
             Significant process            Project is complex              to slip                    10/98      2) 1/00
             redesign required                                                                                    3) dropped
                                            Cost estimates not              Project staff is limited   4/99
             Significant personnel          refined                                                               4) dropped
             changes needed                                                 in size and experience
                                                                                                       3/00
             Other agencies with            For example, cost           Complex project
             similar projects had           increase from $9.9                                         9/01
             unanticipated project cost     million from first estimate
             increases and time delays.     to $16.5 million contract
                                            award. $16.5 million
                                            spent only 4 of 16
                                            business functions
                                            complete
 Various     High Risk                      High Risk                   High Risk                      Unknown      7 years from
   SEI                                                                                                              1992 to 1998
numbers      Implementation                 Project is complex              Project execution                       RDS** not
   for       strategy too large             Cost estimates not              likely to slip                          implemented
 Reengi-     Significant process            refined                         Project staff is                        as
 neering     redesign required              For example, project            limited in size and                     envisioned
Disability   Significant personnel          cost has been about             experience
 System      changes needed                 $70 million to-date and         Complex project
             Require buy-in from            the project still in the
             State disability               pilot phase.
             determination services

*IHRS - Integrated Human Resource System
**RDS - Re-engineered Disability System
IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)                                                       D-2

                                                                                                                          Appendix E

External and Internal Project Costs
The Social Security Administration (SSA) spent approximately $118.3 million on the seven projects reviewed, of which
$77.3 million were external costs and $41 million were internal costs. The Budget Execution Report was the source for
the external costs and the Deputy Commissioner for Systems (DCS) was the source for the internally estimated costs.

                                                  External Cost       Internal                                        Internal     DCS Work
                                                  YTD July 1999   Estimated Cost                                        Cost       Years as of
 Project SEI        RAS          Project                          as of August 14,    Total Cost                      Percent       Aug. 14,
  Number           Number         Name           ($000’s omitted)       1999       ($000’s omitted)                   to Total        1999
     567            2611        EWRS                 $ 7,474           $ 2,827         $10,301                           27           40.5
     145             7871       FACTS                    4,878                  1,874                  6,752              28            27.5
     702             2590       MI                       1,228                  6,845                  8,073              85            97.1
                                IWS/LAN
     704             6412       Policy Net               2,434                    110                  2,544               4             1.5
     740             5022       Video Conf.              2,792                    699                  3,491              20            10.4
     529             6863       IHRS                   13,1221                  3,5902                16,712              21            52.7
    Various        Various      RDS                    45,3743                 25,0244                70,398              36           393.3
TOTAL COSTS                                    $77,302                       $40,969           $118,271         35         623.0
SEI - Special expense item                                                          IHRS - Integrated Human Resource System
RAS - Resource Accounting System                                                     RDS - Re-engineered Disability System
EWRS - Expanded Electronic Wage Reporting System                                     FACTS - Financial Accounting Tracking System
MI IWS/LAN - Management information independent
               work station local area network
1
 As of August 1999

2
 As of September 18, 1999

3
 As of May 3, 1999. Amount includes “other SSA labor”, Non-information technology system (ITS), ITS, and disability determination services

4
 As of May 3, 1999


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
                                                                            Appendix F

AGENCY COMMENTS




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)            1

MEMORANDUM


                                                                                Refer To: SIJ-3
           March   5,2001

To:        JamesG. Ruse, Jr.
           Inspector General

           William A. Halter ':t1Ia '¥
           Acting Commissioner of Social Security

           Office of the Inspector General (GIG) Draft Report, "Infonnation Technology Capital Planning
Subject:
           and Investment Control Processat the Social Security Administration" (A-14-99-12004)­
           INFORMA TIGN


           Attached are our comments concerning the draft report. Staff questions may be referred to
           Mark Welch at extension 50374.

           Attachment:
           SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,

“INFORMATION TECHNOLOGY CAPITAL PLANNING AND INVESTMENT CONTROL

PROCESS AT THE SOCIAL SECURITY ADMINISTRATION”(A-14-99-12004)



We appreciate the opportunity to comment on this draft report.

As the draft report notes, many of the key Clinger-Cohen Act

(CCA) information technology (IT) management reforms were

already in place at the Social Security Administration (SSA)

years before the passage of CCA. In particular, SSA has had an

IT capital planning and investment control (CPIC) process in

place for many years and is continuing to refine its CPIC

process for major IT initiatives. As a result of this

continuing refinement, some aspects of the CPIC process

referenced in the draft report have changed. Our comments on

the draft report recommendations are provided below.


Recommendation 1


Develop a risk model and use it in the strategic planning

process for all proposed IT projects. Selection criteria should

include weighing risk for cost, benefits, schedule, technical,

etc.


Comment


As part of the refinement of its CPIC process, SSA will explore

more systematic risk modeling procedures for proposed IT

projects. We will investigate and document the requirements for

a capital planning risk management system. As part of this

effort, SSA will consider the recommendations of the CIO

Council, Gartner Group, Carnegie-Mellon University’s Software

Engineering Institute, as well as internal experts. We will

also evaluate promising commercial off-the-shelf (COTS) decision

support tools with risk management capabilities, such as Expert

Choice. Analysis of available risk modeling tools in

conjunction with SSA component requirements will result in a

recommendation to the Commissioner by the end of the calendar

year concerning a comprehensive risk assessment and management

strategy for IT projects.


The draft report identifies three projects (Electronic Wage

Reporting System (EWRS), Integrated Human Resources System

(IHRS) and Reengineered Disability System (RDS)) as having high

risk. It concludes that SSA did not recognize the risks

associated with these projects, but might have identified them

as high-risk projects if a risk assessment using risk modeling



IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)   F-2
had been performed. However, the conclusion that SSA did not

recognize the risks associated with these projects is incorrect.

Although a formal risk assessment was not done for these

projects, the Agency was aware of the risks involved, and it

considered these risks in its discussions and decisionmaking.

The Chief Information Officer (CIO) subjected each of these

projects to special oversight through incremental investment

reviews.


It is important to recognize that all risks cannot be

anticipated and that the ability to continue and complete

projects in accordance with plans can be significantly impacted

by factors such as budget constraints, labor issues and

political considerations that are beyond the control of an

agency. Moreover, legislative mandates can have a significant

impact on SSA’s IT project portfolio and on planned IT project

development and implementation schedules. This is because

legislative mandates can result in unanticipated, high-priority,

resource-intensive IT projects that must be implemented under

demanding time constraints. Supporting the implementation of

new legislation can require the immediate addition of new

projects to SSA’s IT investment portfolio, the reprioritization

of projects, the reallocation of limited resources from other

projects to meet legislative mandates, and delays in the planned

development and implementation schedules for the projects

impacted.


Recommendation 2


Evaluate using decision support software (DSS) tools like Expert

Choice to further assist SSA in its selection of IT projects.

Expert Choice allows the user to take the intangibles of

decisionmaking (experience, insight, and judgment) and weigh

them against a customized set of criteria.


Comment


As stated in the response above, SSA will assess Expert Choice

and possibly other DSS tools. However, it is important to note

that while a DSS tool can ensure that a customized set of

evaluation criteria is used in the IT project selection phase

and provide some documentation of that aspect of the CPIC

process, these tools come with their own sets of constraints and

limitations that may relegate their value and importance to an

ancillary role in the overall process. Moreover, human

decision-makers are capable of assessing project criteria,




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)   F-3
defining parameters and weighing judgments without an automated

tool.


Recommendation         3


Redesign SSA’s Capital Planning and Investment Control Process

to incorporate the processes for making budget, financial and

program management decisions within the Agency into one

integrated system. SSA could implement this recommendation

through the use of the Information Technology Investment

Portfolio System (I-TIPS) software.


Comment


Though an integrated system may enhance the Agency’s CPIC

process, Section 5122(b)(2) of the CCA requires an integrated

process, rather than an integrated system.


When SSA reviewed I-TIPS in February 1999 and assessed what

would be required for its implementation and the improvements I-

TIPS would provide for SSA’s CPIC process, I-TIPS did not

provide enough benefits to warrant implementation at SSA. Since

then, the product has matured and SSA is reexamining it.


SSA will assess I-TIPS as a tool to collect, analyze and report

IT project accountability information and review Expert Choice,

and possibly other similar COTS packages, for consideration as

partnered tool(s).


Recommendation 4


Design and implement an IT project accountability system that

(a) captures all funds spent with budgeted cost;

(b) allows expanded scheduling information like expected versus

actual implementation date, including milestone dates; and

(c) includes performance indicators, such as return on

investment or any other benefit measures.


Comment


As part of our ongoing efforts to enhance our CPIC process, we

will assess the ability of I-TIPS to interface with SSA’s

current and planned CPIC process support systems to better track

IT project costs, progress and performance and compare actual

results with those planned. We may also consider other

alternatives for project accountability if appropriate.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)   F-4
Recommendation 5


Require benefits to be quantified and performance measures to be

identified for major projects in SSA’s strategic planning

guidance.


Comment


SSA’s strategic planning guidance requires benefits to be

determined for key initiatives. While the benefits and

performance measures may not have been well documented for some

projects, this has been due more to inconsistent performance in

some cases than to lack of policy and procedures. Even in

instances where documentation may appear sparse, the Agency has

always considered benefits and costs in its IT project decision-

making, and will place emphasis on better documenting them as

part of the refinement of its CPIC process.


Recommendation 6



Request management information on the financial accounting of

each project (spent to-date and the amount remaining to be

spent), milestones, and expected implementation date.


Comment


Although this management information has historically been

considered and will continue to be considered in decision-making

on IT projects, we will evaluate whether a system, such as I-

TIPS, is able to enhance our process.


Recommendation 7


Perform variance analysis and exception reporting on cost and

scheduling time frames.


Comment


Our review of I-TIPS will include an assessment of its ability

to collect, analyze and report IT project accountability

information to better track IT project costs, progress and

performance and compare actual results with those planned.

Other alternatives for achieving this may be considered.





IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)   F-5
Recommendation 8


Establish policies and procedures for conducting post-

implementation reviews.


Comment


SSA’s target CPIC process includes post-implementation reviews.

The Agency will establish more detailed policies and procedures

for conducting post-implementation reviews in 2001.


Recommendation 9


Perform post-implementation reviews on appropriate IT projects.


Comment


SSA expects to perform post-implementation reviews on

appropriate IT projects, in accordance with its CPIC process.


Other Comments


The chart on page 8 of the draft report identifies the EMIS and

shows the "use" and "responsible component" for the system.

Both should be revised as follows:


•	 The EMIS is used for much more than IT project planning. The
   scope of the data housed in the EMIS includes data and
   documents related to various aspects of Government Performance
   and Results Act (GPRA) strategic planning, GPRA strategic
   performance management and reporting, project management for
   important Agency, non-GPRA and non-IT projects, financial
   information and guidance, and operational statistics. It is
   not simply an IT project tracking system, but serves broader
   Agency information and data needs.

•	 The responsible SSA component for the EMIS is not the Office
   of Strategic Management; rather it is the Executive Support
   Staff in the Office of Systems.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)   F-6
                                                                            Appendix G

OIG Contacts and Staff Acknowledgements
OIG Contacts
   Kitt Winter, Director, Systems Audit Division, (410) 965-9702

   Albert Darago, Audit Manager, Systems Audit Division
   (410) 965-9710

Acknowledgments
In additions to those named above:

   Randy Townsley, Senior Auditor

   Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services
   Division




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
                             DISTRIBUTION SCHEDULE


                                                                              No. of
                                                                             Copies

Commissioner of Social Security
                                                  1
Management Analysis and Audit Program Support Staff, OFAM
                       10
Inspector General
                                                                1
Assistant Inspector General for Investigations
                                   1
Assistant Inspector General for Executive Operations
                             3
Assistant Inspector General for Audit
                                            1
Deputy Assistant Inspector General for Audit
                                     1
  Director, Systems Audit Division
                                               1
  Director, Financial Management and Performance Monitoring Audit Division        1
  Director, Operational Audit Division                                            1
  Director, Disability Program Audit Division                                     1
  Director, Program Benefits Audit Division                                       1
  Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                         25
Income Maintenance Branch, Office of Management and Budget
                       1
Chairman, Committee on Ways and Means
                                            1
Ranking Minority Member, Committee on Ways and Means
                             1
Chief of Staff, Committee on Ways and Means
                                      1
Chairman, Subcommittee on Social Security
                                        2
Ranking Minority Member, Subcommittee on Social Security
                         1
Majority Staff Director, Subcommittee on Social Security
                         2
Minority Staff Director, Subcommittee on Social Security
                         2
Chairman, Subcommittee on Human Resources
                                        1
Ranking Minority Member, Subcommittee on Human Resources
                         1
Chairman, Committee on Budget, House of Representatives
                          1
Ranking Minority Member, Committee on Budget, House of Representatives            1
Chairman, Committee on Government Reform and Oversight                            1
Ranking Minority Member, Committee on Government Reform and Oversight             1
Chairman, Committee on Governmental Affairs                                       1
Ranking Minority Member, Committee on Governmental Affairs                        1


IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                             1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
               Overview of the Office of the Inspector General

                                      Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                               Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                          Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.




IT Capital Planning and Investment Control Process at SSA (A-14-99-12004)
